Report No. IE-2007-004              March 31, 2007




           Inspections and Evaluations

            2006 Evaluation of the
       Federal Voting Assistance Program
                     in the
            Department of Defense
                           DEPARTMENT OF DEFENSE
                          OFFICE OF INSPECTOR GENERAL




                                MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




                                                                                             D E PA R T M E N T O F D E F E N S E
                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.


                                                                                             hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
                                                 DoD Voting Assistance Program
                                                                                    March 2007

             Who Should Read This Report

             DoD civilian and military personnel who are responsible for the
             administration, oversight, and implementation of the Federal Voting
             Assistance Program and Military Services’ voting assistance programs should
             read this report.

             What Was Identified
             The Inspectors General of the Military Departments characterized their 2006
             DoD voting assistance programs as effective in accordance with the
             provisions of section 1566, title 10, United States Code. However, there
             continue to be opportunities to improve the provision of voting information
             and materials to absentee voters. Sixty-five percent of respondents to the
             DoD IG Voting Assistance Program questionnaire said they were aware of
             the Service voting assistance programs. Fifty-nine percent answered that
             they knew where to obtain voting information on base. Forty percent of the
             respondents indicated that they had received voting information and
             materials.

             The Army, Navy, Air Force, and Marine Corps reported varying degrees of
             compliance with DoD Directive 1000.4, “Federal Voting Assistance Program
             (FVAP),” April 14, 2004, and with their respective Service instructions. At the
             10 DoD installations visited, we observed an insufficient number of
             designated Voting Assistance Officers. While this factor does not in and of
             itself indicate lack of effectiveness, it did, in some cases, prevent the Voting
             Assistance Officer from being fully compliant with Federal Voting Assistance
             Program and DoD requirements.

Knowledge of on-line information was not widespread. The questionnaire revealed that 23
percent of respondents knew their Service had a Web site dedicated to voting information
and that 24 percent knew of the Federal Voting Assistance Program Web site.

How It Can Be Improved

If fully implemented, recommendations in this report should facilitate compliance with DoDD
1000.4 and alleviate difficulties in disseminating voting information and material. The
Principal Deputy Under Secretary of Defense for Personnel and Readiness concurred with
recommendations to provide guidance on commanders’ flexibility in appointing Unit Voting
Assistance Officers and on the importance of appointing civilian Installation Voting
Assistance Officers, as well as to investigate authorizing the appointment of civilians as
Unit Voting Assistance Officers. The Principal Deputy also concurred with the
recommendation to comply with a previous recommendation to establish one-click links
from the Service home pages to their voting assistance Web sites.


                                                 Department of Defense Office of Inspector General
                                                                                Report No. IE07-004
                                             i
ii
Table of Contents


Background                                                                               1

Objectives                                                                               4

Results
     Implementation of the DoD Voting Assistance Programs                                5

Appendixes
     A. Scope and Methodology                                                          14
     B. Prior Coverage                                                                 16
     C. Summary Results of Effectiveness Questionnaire                                 17
     D. Summary Results of Compliance Assessment                                       18
     E. Uniformed Absentee Voter Questionnaire                                         19
     F. Installations Visited                                                          25
     G. Department of the Army Inspector General Report                                26
     H. Department of the Navy Inspector General Report                                30
     I. Department of the Air Force Inspector General Report                           35
     J. Marine Corps Inspector General Report                                          41
     K. Acronym List                                                                   54
     L. Report Distribution                                                            55

Management Comments                                                                    56




                                                 Department of Defense Office of Inspector General
                                                                                Report No. IE07-004

                                           iii
This Page Intentionally Blank
Background

    The Department of Defense Inspector General (DoD IG) and the Inspectors General of
    the Military Services are required to conduct annual effectiveness and compliance
    assessments of the DoD voting assistance programs in accordance with the provisions of
    section 1566, title 10, United States Code (10 U.S.C. 1566), “Voting assistance:
    compliance assessments; assistance.” To conduct the assessment, the DoD IG team
    visited 10 DoD installations (see Appendix F) and reviewed the Military Services’
    respective assessment reports (see appendixes G through J).

    DoD Policy and Service Regulations. DoD Directive 1000.4, “Federal Voting
    Assistance Program (FVAP),” April 14, 2004 (the Directive), assigns the Under Secretary
    of Defense for Personnel and Readiness (USD [P&R]) responsibility for administering
    the Federal Voting Assistance Program (FVAP) for the Secretary of Defense. The USD
    (P&R) established the FVAP Office to manage the program.

    The Army, Navy, Air Force, and Marine Corps supplement the Directive with Service-
    specific regulations and instructions:

       •   Army Regulation 608-20, “Army Voting Assistance Program,” October 28,
           2004. The Regulation establishes and assigns specific responsibilities to the
           Adjutant General, commanders of major Army commands, installation
           commanders, and unit commanders down to company and detachment levels.

       •   Office of the Chief of Naval Operations Instruction 1742.1A (Revision),
           “Navy Voting Assistance Program,” December 15, 2004. The Instruction
           states that the Navy voting assistance program will ensure that eligible voters
           receive information about registration procedures and voting materials pertaining
           to scheduled elections.

       •   Air Force Instruction 36-3107, “Voting Assistance Program,” September 10,
           2003. The Instruction reiterates specific responsibilities for Air Force
           headquarters, commanders of major commands and installations, installation
           personnel directors, and Voting Assistance Officers at each level of command.

       •   Marine Corps Order 1742.1A (with Changes 1-2), “Voter Registration
           Program,” May 14, 2002. The Order assigns responsibility for implementing the
           Marine Corps voter registration program to commanding officers at all echelons
           to assist Marines, their family members, and certain others in exercising their
           right to vote.

    Federal Voting Assistance Program. The FVAP Office provides assistance and voting
    information to Service members, their dependents, and overseas absentee voters, whether
    members of the Military Services or civilians. The most notable services include Voting
    Assistance Officer (VAO) training (on site and Web based); a voting assistance guide
                                                Department of Defense Office of Inspector General
                                                                             Report No. IE07-004
                                            1
with State-by-State information; the monthly publication Voting Information News,
which contains timely information on upcoming elections and a to-do list for Unit VAOs;
and the FVAP Web site (www.fvap.gov), which provides voting assistance and
information to uniformed absentee voters, their eligible dependents, and U.S. civilians
residing overseas.

The FVAP Office submits a quadrennial report to the President and the Congress after
each Presidential election and summarizes the effectiveness of assistance provided under
the Uniformed and Overseas Citizens Absentee Voting Act (UOCAVA). The most
recent report on “The Federal Voting Assistance Program” was issued in October 2005.
UOCAVA reporting requirements specify a separate statistical analysis of voter
participation by Service members, a separate statistical analysis of voter participation by
nonmilitary personnel overseas, and a description of State-Federal voting registration and
election cooperation. Therefore, the FVAP report provides valuable information on the
effectiveness of the voting assistance program as measured by actual voter participation.

Military Services
                                                                      Provide:
Voting Assistance                                                        DoD Directive
Programs. Figure 1                                                       VAO Training
illustrates the major                     USD (P&R)                      Voting Guide
                                          FVAP Office                    FVAP Web site
elements of the Military                                                 Program Oversight
Services voting
assistance programs. The
                                                                      Provide:
VAO ensures that               Military Services                         Service instructions
Service members, their            Military Services                      Service Web sites
                                      Military Services
dependents, and civilians                Military Services               Voting Materials
                                                                         Service-level oversight
residing overseas receive
information about
absentee voting,                                                      Assign VAOs
                                          Installation &              Monitor VAO performance
including registration and              Unit Commanders
voting procedures,
polling places, dates of                                              Provide:
scheduled elections for                 Voting Assistance                Voting Information
                                         Officers (VAO)
Federal offices, and                                                     Voting Materials
                                                                         Training and
points of contact for                                                     Assistance
additional assistance,
along with voting                     Uniformed Absentee
                                      Voters & Dependents             Register and Vote
materials such as
absentee ballots.
                                              States                  Compile voting results
                                                                      Administer Elections




                                Figure 1. Voting Assistance Program Elements



                                              Department of Defense Office of Inspector General
                                                                           Report No. IE07-004
                                         2
Prior Year Recommendations

DoD IG Report No. IE-2006-001, “Evaluation of the Voting Assistance Program,”
March 31, 2006, (evaluation of the 2005 program) identified observations related to
increasing flexibility within the voting assistance program and improving visibility of on-
line voting resources. To address those and other observations, we recommended that the
USD (P&R):

   •    revise DoD Directive 1000.4 to permit Service heads to exercise flexibility in
        assignment of UVAOs, and

   •    direct the Services to establish one-click Web site access from their home pages
        to a page that provides Service-related and Federal voting information and
        materials.

DoD IG Report No. IE-2005-001, “Evaluation of the Voting Assistance Program,”
March 31, 2005, (evaluation of the 2004 program) recommended that the USD (P&R):

    •   develop an automated delivery and reporting system, and

    •   develop and forward to Congress a legislative proposal that would reduce or
        eliminate oversight requirements by the Services’ Inspectors General and the
        DOD IG, commensurate with the success of process improvements and
        automated reporting procedures.

The legislative proposal to reduce oversight requirements was passed in the FY2007
National Defense Authorization Act.




                                             Department of Defense Office of Inspector General
                                                                          Report No. IE07-004
                                         3
Objectives

In accordance with 10 U.S.C. 1566, the objectives of this 2006 evaluation are to assess:

    •   the effectiveness of DoD voting assistance programs; and

    •   the level of compliance of the Army, Navy, Air Force, and Marine Corps with the
        DoD voting assistance program requirements.




                                             Department of Defense Office of Inspector General
                                                                          Report No. IE07-004
                                        4
Results
     Although the Inspectors General of the Military Services reported that 2006 DoD voting
     assistance programs were effective in accordance with the provisions of 10 U.S. Code
     1566, there are opportunities for improvement.

     The 2006 DoD IG questionnaire results provided information on the effectiveness of the
     FVAP and Service voting assistance programs at the installations visited. The results of
     selected responses are provided in tables 1 and 2 and complete results are in Appendix C.

     The Inspectors General of the Army, Navy, Air Force, and Marine Corps reported
     varying degrees of compliance with DoD Directive 1000.4 and their respective Service
     instructions. At all 10 DoD installations visited by DoD IG, we identified units that were
     not in complete compliance with the requirements of the Directive and their Service
     instructions (see Appendix D). Despite the lack of full compliance noted in this report,
     those Service Inspectors General providing summary evaluations characterized their
     voting assistance programs as effective and/or compliant.

Goal of the Federal Voting Assistance Program
     The goal of the FVAP is to ensure that Service members, their dependents, and civilians
     residing overseas receive information on absentee voting, including registration and
     voting procedures, dates of scheduled elections for Federal offices, and points of contact
     for additional assistance, along with voting materials such as absentee ballots. DoD
     Directive 1000.4, “Federal Voting Assistance Program (FVAP),” April 14, 2004, requires
     Service VAOs to expeditiously obtain and disseminate information and voting forms to
     voters. The Directive also requires the VAO to personally assist voters as needed for all
     elections for Federal offices. Furthermore, the Directive requires DoD Services to
     establish and maintain individual voting assistance Web sites.

Assessment of Effectiveness
     We used the responses from the on-line questionnaire (see appendixes A and E) to assess
     the effectiveness of the voting assistance program. The questionnaire was administered
     to 25,679 Service members, 20 percent of those assigned to the 10 installations chosen,
     less known losses due to deployments, transfers, retirements, etc. We received 2106
     usable responses. The analysis of the questionnaire responses in Appendix C shows that
     the Services could improve their programs to disseminate voting information and
     absentee balloting materials. The summarized data cannot be generalized beyond the 10
     locations evaluated because the locations were selected judgmentally, and the data are too
     few to support any possible generalization beyond those of the participants whose
     responses were recorded.




                                                  Department of Defense Office of Inspector General
                                                                               Report No. IE07-004
                                              5
Dissemination of Voting Information and Registration Materials. Table 1 presents
the results of this years responses for those inquiries related to receipt of voting
information and voting registration materials by the voter.



             Table 1: 2006 Voting Information and Assistance Responses

              Aware of Federal Voting                       65%
               Assistance Program

             Knew Where (on-base) to                        59%
             Obtain Voting Information

             Knew of the Federal Voting                     24%
                Assistance Web site
                 (www.fvap.gov)

            Knew of Their Service Voting                    23%
                Assistance Web site

            Received Voting Information                     40%

            Requested Assistance of the                     40%
           Unit Voting Assistance Officer
                     (UVAO)



To register to vote and request an absentee ballot, overseas Service members and
civilians can use the Federal Post Card Application (FPCA), SF 76A. If voters do not
receive the requested regular absentee ballot, they can use the Federal Write-in Absentee
Ballot (FWAB), SF 186, as a back-up ballot for Federal elections. Table 2 illustrates
respondents’ familiarity with and receipt of these forms and their use within the response
group.

             Table 2. Voting and Registration Material Responses

                Aware of the Federal Post                 33%
                   Card Application

                Received Federal Post                     25%
                Card Application from
               UVAO by 15 Jan Deadline

               Aware of Federal Write-In                  31%
                   Absentee Ballot


                                             Department of Defense Office of Inspector General
                                                                          Report No. IE07-004
                                         6
    Absentee voters must submit the FPCA in a timely manner to be eligible to vote.
    Potentially, greater use, awareness, and access to voting assistance Web sites could
    minimize the need for physical distribution of FPCAs and result in more timely delivery
    of the forms to those who require this service.

    Questionnaire Responses From Dependents. Out of the 100 questionnaires we
    distributed to dependents, we received only 18 completed questionnaires. The 18-percent
    response rate yielded insufficient data to support any meaningful analysis of program
    effectiveness for dependents. Most VAOs rely on active duty members to provide
    information and materials to their dependents. Dependent responses, like active duty
    responses to the questionnaire, are voluntary.

Assessment of Compliance

    Installation VAOs (IVAOs) and Unit VAOs (UVAOs) have specific duties and
    responsibilities under the Directive to ensure voters get voting information and materials.
    We interviewed 7 IVAOs and 20 UVAOs assigned at 10 installations. The interviews
    focused on the dissemination of information, the number of unit members served by each
    UVAO (the UVAO-to-member ratio), and the assignment of VAO duties at the specified
    rank or grade levels.

    The 10 installations and 20 units evaluated exhibited varied levels of compliance with the
    Directive and Service guidelines. We identified these opportunities for improvement at
    all installations and units.

       •   Single, Fixed Location. Establish, or improve the advertising for, a single, fixed
           location on each installation where voting materials and voting assistance are
           available. While half of the installations visited indicated a single, fixed location,
           none was well advertised.

       •   FPCA Hand Delivery. Clarify the guidance on hand delivery of FPCAs. Only 1
           of 20 UVAOs interviewed had provided hand delivery of FPCAs by the required
           January 15 deadline.

       •   Compliance with Service Guidelines on the UVAO-to-Member Ratio. Provide
           flexibility to the commander in the Directive and in Service instructions for
           determining UVAO-to-member ratios. Only 8 of the 20 UVAOs interviewed met
           their Service standard for the ratio of UVAOs to members.

    Dissemination of Information and Material. Although 26 of the 27 VAOs interviewed
    described methods for disseminating voting materials to eligible voters, only 1 of the 20
    UVAOs had delivered the FPCA by January 15, 2006. The directive specifies that the
    FPCA must be hand delivered to eligible voters and their voting-age dependents by
    January 15 of each calendar year. The UVAOs gave several reasons for not delivering
    FPCAs in a timely manner.


                                                  Department of Defense Office of Inspector General
                                                                               Report No. IE07-004
                                             7
   •   UVAOs were assigned to the position after January 15 and did not know whether
       their predecessors had delivered the form.

   •   UVAOs did not know of the requirement.

   •   UVAOs perceived the requirement as an administrative burden, particularly in
       units where they had responsibility for a large number of personnel and in units
       whose members were geographically dispersed.

UVAOs disseminated voting information primarily through intranet or e-mail, realizing
that electronic dissemination is very efficient at reaching a large and dispersed group of
people. UVAOs were not, however, using existing unit training opportunities to
disseminate voting information. We therefore suggested that, in addition to the electronic
methods previously discussed, UVAOs use resources such as shift leaders, shop
managers, platoon sergeants, plan of the day, commander’s call, unit formations, and
voter information booths to disseminate voting information.

UVAO-to-Member Ratio. According to the Directive, in each unit with 25 or more
personnel 1 UVAO must be assigned. An additional UVAO should be assigned for each
additional 50 members. In determining whether the Services complied with the guidance
for UVAO-to-member ratios, we also considered the Service instructions.

   •   Air Force Instruction 36-3107 requires 1 O-2/E-7 Unit Voting Assistance
       Counselor for every 100 members. Of the 6 Air Force UVAOs, 2 represented
       more than 100 members each.

   •   Marine Corps Order 1742.1A requires 1 UVAO for every 200 eligible voters.
       During our visits, we discovered that 1 of 4 Marine Corps UVAOs represented
       more than 200 service members.

   •   Army Regulation 608-20 and Office of the Chief of Naval Operations Instruction
       1742.1A requirements are the same as those cited in DoD Directive 1000.4.
       Among Army and Navy UVAOs interviewed, we found that 9 of 10 represented
       personnel in excess of the ratio established in their Component instructions.

Of the 20 UVAOs interviewed, 12
exceeded the prescribed ratio. In units       Recommendation 1: Publish guidance to
where the UVAO-to-member ratio                the Services clarifying paragraph 5.2.1.4.2
                                              of DoD Directive 1000.4 regarding the
exceeded the prescribed ratio, the            commander’s flexibility in establishing the
dissemination of information was              ratio of UVAOs to members.
adequate, but the dissemination of
material did not meet requirements.




                                                Department of Defense Office of Inspector General
                                                                             Report No. IE07-004
                                          8
     IVAO Turnover. We observed that civilians appointed as IVAOs typically served for
     longer periods, ensured continuity, and had a higher level of program knowledge than
     uniformed IVAOs. The frequent
     turnover of uniformed IVAOs                    Recommendation 2: Publish guidance to
     significantly hindered their ability to        the services emphasizing the importance
                                                    and benefits of appointment of civilian
     operate a compliant program. While the         personnel as IVAOs.
     Directive states that “where possible,
     IVAOs should be a civilian” (GS-12 or
     higher), we found only 4 of the 10 installations visited had civilian IVAOs. At these four
     installations, we noted significantly stronger and better managed voting assistance
     programs than at the six installations with uniformed IVAOs. This observation should
     not denigrate the performance and dedication of uniformed personnel, but the continuity
     brought by a civilian employee assigned for a long term enhances effectiveness.

     UVAO Turnover. Turnover of UVAOs is excessive. The most notable example from
     the UVAOs interviewed was one individual who was the third person to hold that
     position since January 1, 2006. The directive prescribes that the individual be an O-2/E-7
     or above. The UVAO is always a
     collateral assignment within an         Recommendation 3: Revise DoD Directive
     organization and is typically a         1000.4 to authorize appointment of civilian
     uniformed individual appointed          personnel as UVAOs where feasible.
     from the junior officer or senior
                                             Recommendation 4: Revise DoD Directive
     enlisted ranks. The Directive           1000.4 to provide flexibility with regard to
     prescribes that the UVAO be an O-       prescribed pay grades of personnel assigned
     2/E-7 or above. There is no             VAO duties.
     provision for this position to be
     filled by a civilian, even if
     appropriate and/or adequate civilian staff is available. This assignment is usually viewed
     by the uniformed UVAO as an additional duty that has nothing to do with the mission or
     mission readiness. A rather intuitive observation was that UVAOs who had volunteered
     for the position were typically more enthusiastic, knowledgeable, and capable in
     executing their assignment, including those who did not meet the pay grade requirement
     of the Directive, but were nonetheless performing commendably.

Availability of On-Line Information

     The directive specifically requires heads of Services to establish and maintain a Voting
     Assistance Program Web site accessible from the Service’s Web site. The 2005 report
     recommended that the Services’ voting assistance Web sites be accessible by one-click
     from each Service’s home page: www.army.mil, www.navy.mil, www.af.mil, or
     www.usmc.mil. The 2006 questionnaire indicated that 23 percent of respondents knew
     their Service had a Web site dedicated to voting information, and that 24 percent of
     respondents were aware of the FVAP Web site at www.fvap.gov.




                                                  Department of Defense Office of Inspector General
                                                                               Report No. IE07-004
                                              9
Military Web Sites. Although
voting information can be          Recommendation 5: Direct the Services to comply
researched at each Service site,   with the 2005 recommendation to establish a one-
                                   click link from their home page (www.army.mil,
ease of access to and              www.af.mil, www.navy.mil, www.usmc.mil) to
navigation through the             their respective Service voting assistance Web site.
individual Services’ home page     This link should be prominently and permanently
vary (see table 3). When we        displayed on the Service home page. The Service
first surveyed the Service Web     voting assistance Web sites should include links to:
sites, the Air Force and Marine    1) the FVAP Web site, 2) FPCA and FWAB forms,
Corps were the only ones with      and 3) contact information for the IVAO at all
                                   installations.
one-click links to their voting
assistance Web sites. A more recent review found that the Air Force had deleted its link,
leaving only the Marine Corps with a direct link. To facilitate access to common voting
information and encourage the use of the Service voting assistance Web sites, the
Services must establish and continuously display a prominent one-click link from their
home pages to their voting assistance Web sites. The Services’ voting assistance Web
sites should include links to:

   •   the FVAP Web site (www.fvap.gov),

   •   FPCA and FWAB forms, and

   •   contact information for the IVAO at all installations.

         Table 3. Accessibility to the Services’ Voting Assistance Web Sites

        Service           One-Click Access to Service                 Comments
                          Voting Assistance Web site

         Army                           No                  Link available using the drop
                                                            down A-Z search feature and
                                                               clicking on the letter V

         Navy                           No                  Invalid voting assistance link
                                                               cited in OPNAVINST
                                                                      1742.1A

       Air Force                        No                     Link available from
                                                            AFCROSSROADS Web site

        Marines                        Yes                            Compliant



Another very simple solution, although not mandated, would be for installations and units
that are maintaining their own Web site(s) to place a one-click link on their sites to the
FVAP Web site.

                                             Department of Defense Office of Inspector General
                                                                          Report No. IE07-004
                                        10
    The FVAP Web Site. Voters can view and download information, materials, and forms
    from the FVAP Web site at www.fvap.gov. The site provides worldwide, toll-free
    telephone and fax numbers for assistance.

       •   Federal Post Card Application (FPCA - SF 76A). Although the FPCA on-line
           version cannot be used as a true online voter registration mechanism, voters can
           download the form and mail in the application. The FPCA is now accepted by all
           states and territories (except Guam and American Samoa) to request registration
           and/or an absentee ballot.

       •   Federal Write-in Absentee Ballot (FWAB - SF 186A). The FWAB is used to
           vote for Federal offices in general elections. Some States allow Service members
           and civilians overseas to use the FWAB in elections other than general elections
           or for offices other than Federal offices, as explained on the FVAP Web site.
           Also, there are links to the 13 states that accept the expanded use of the FWAB.

    Installation and Unit Web sites. All installations and units that we visited maintained
    their own Web sites. The installation Web sites were usually accessible via internet,
    intranet, or both. The unit Web sites were usually intranet sites accessible only within the
    unit. Many of the Web sites maintained as private (intranet) sites provided a very
    effective venue for also posting a one-click link to the FVAP Web site. For those skillful
    in the creation of Web pages, these installation/unit Web sites can provide a unique
    opportunity to electronically publish and disseminate voting information of local interest,
    identify contact data for local IVAOs/UVAOs, and provide an advertising link for the
    installation’s single fixed location for absentee voting material and assistance.

Conclusions
    The evidence from our evaluation, while a limited sample, indicates that there are
    opportunities for improvement of the Federal and Service Voting Assistance Programs as
    implemented and managed at the sites we visited. The Inspectors General of the Army,
    Navy, Air Force, and Marine Corps provided evaluations of their respective voting
    assistance programs (See Appendixes G through J).

    The FVAP Office indicated that there is flexibility in the directive’s language that allows
    commanders latitude in determining UVAO to member ratio. This flexibility is evidenced
    by use of the word “should” in the statement; “An additional Voting Assistance Officer
    should be assigned…”Our experience was that the language was ambiguous and not well
    understood in the field as providing that flexibility.

    The directive suggests that “where possible” the IVAO position should be filled by a
    civilian. This suggestion is made to primarily provide for the continuity that a civilian
    brings to the program at this level. We found this suggestion was followed at only 4 of
    10 of the installations visited. We feel that more detailed guidance, with appropriate
    emphasis on the benefits of a civilian IVAO, will encourage installations with adequate
    civilian staff assets to move in this direction.



                                                  Department of Defense Office of Inspector General
                                                                               Report No. IE07-004
                                             11
    There is currently no provision in the directive for appointment of civilian personnel as
    UVAOs. The appointment of civilians as VAOs at the unit level carries the same
    potential benefits as civilians serving as IVAOs.

    The directive prescribes pay grade requirements for both civilian and uniformed
    personnel serving as VAOs. Units often have enthusiastic and willing personnel desiring
    to serve as UVAOs, but not meeting the prescribed pay grade requirement. As with
    UVAO to member ratios, the commander should have the flexibility to make local
    decisions regarding this issue.

    Our report on the 2005 program (DoD IG Report No. IE-2006-001) recommended that
    the Services be directed to establish a one-click link from their principal Web site to their
    respective service Voting Assistance Program Web-site. Only two of the Services
    created such a link, and one has since dropped it. This link facilitates the ability of
    members to locate voting information, forms, and service specific points of contact on
    their own and reduces administrative requirements on the VAO.

Recommendations

    We recommend that the Under Secretary of Defense for Personnel and Readiness:

               1. publish guidance to the Services clarifying paragraph 5.2.1.4.2 of DoD
                  Directive 1000.4 regarding the commander’s flexibility in establishing the
                  ratio of Unit Voting Assistance Officers to unit members,

               2. publish guidance to the Services emphasizing the importance and benefits
                  of appointment of civilian personnel as Installation Voting Assistance
                  Officers,

               3. revise DoD Directive 1000.4 to authorize appointment of civilian
                  personnel as Unit Voting Assistance Officers where feasible,

               4. revise DoD Directive 1000.4 to provide flexibility with regard to pay
                  grades required of personnel assigned Voting Assistance Officer duties,
                  and

               5. direct the Services to comply with the 2005 recommendation to establish a
                  one-click link from their home page (www.army.mil, www.navy.mil,
                  www.af.mil, and www.usmc.mil) to their respective voting assistance
                  Web site. This link should be prominently and permanently displayed on
                  the Service home page. The Service voting assistance Web sites should
                  include links to 1) the Federal Voting Assistance Program Web site
                  (www.fvap.gov), 2) Federal Post Card Application and Federal Write-in
                  Absentee Ballot forms, and 3) contact information for the Installation
                  Voting Assistance Officer at all installations.




                                                  Department of Defense Office of Inspector General
                                                                               Report No. IE07-004
                                             12
Management Comments

  USD (P&R) concurred with all recommendations except recommendation 3. The exception
  cited with recommendation 3 concerns the practicability of implementing the
  recommendation within the U.S., and defers to the Services regarding the desirability of
  implementation overseas. The full text of their response is included in the Management
  Comments section of this report.




                                                 Department of Defense Office of Inspector General
                                                                              Report No. IE07-004
                                            13
Appendix A. Scope and Methodology

   We conducted unannounced visits to 10 military installations, including 3 Army, 2 Navy,
   3 Air Force, and 2 Marine Corps installations. At each location, we assessed the voting
   assistance program. We developed questionnaires based on statutory requirements and
   DoD policies for interviews of prospective voters. We interviewed VAOs and solicited
   questionnaire responses from the installations’ military personnel and their dependents.

   To assess the effectiveness of voting assistance programs, we disseminated a Web-based
   questionnaire to 25,679 uniformed personnel, representing the required 20 percent of the
   145,239 personnel assigned to the 10 installations. The total number of personnel
   available to respond to the questionnaire was less than 25,679 due to losses resulting
   from deployments, transfers, retirements, etc. We also distributed the questionnaire to
   100 dependents. The questionnaire focused on the dissemination of information and
   voting materials.

   To assess the Military Services’ compliance with voting assistance programs, we
   interviewed 7 of 9 assigned Installation VAOs and 20 Unit VAOs. Interview questions
   addressed six areas: VAO appointments, information dissemination, material
   dissemination, training, resources, and written guidance.

   Levels of effectiveness and compliance were measured as the percentage of respondents
   who answered affirmatively.

   Use of Computer-Processed Data. We relied on data provided by the Defense
   Management Data Center to identify personnel assigned to installation sites selected.
   Although we did not perform a formal reliability assessment of the computer-processed
   data, we determined that the personnel rosters accurately identified people assigned to the
   installations. We did not find errors that would preclude the use of Defense Management
   Data Center data to meet the evaluation objective or change our report conclusions.

   Universe and Sample. We judgmentally selected 10 installations in the continental
   United States with a total population of 145,239 uniformed personnel. The 10 sites
   selected had not been previously evaluated. The 20-percent sample of 25,679 was the
   result of statistical sampling.

           The judgmental selection of 10 field sites means that the results cannot
                      be projected beyond the installations visited.

   We received 2,106 responses to the Web-based questionnaire, representing a response
   rate of 8.2 percent. The comparatively low response rate was in part the result of our
   visits being unannounced and units being deployed or otherwise unavailable to
   participate in the questionnaire.

   The evaluation was conducted from August through November 2006 according to
   standards implemented by the DoD IG. Section 1566, title 10, United States Code,
                                                Department of Defense Office of Inspector General
                                                                             Report No. IE07-004
                                           14
requires Service IG reports to be reflected in the DoD IG report to Congress.
Accordingly, the Service IG reports are in appendixes G through J. We did not validate
the results in the Service IG reports.

Use of Technical Assistance. Personnel from the DoD IG Quantitative Methods
Division assisted with questionnaire development and data analysis. Also, the DoD IG
Web Development Team assisted with developing and implementing the Web-based
questionnaire.




                                            Department of Defense Office of Inspector General
                                                                         Report No. IE07-004
                                       15
Appendix B. Prior Coverage

      During the last 6 years, the Government Accountability Office (GAO), DoD, and the
      Department of State have issued reports on FVAP and overseas absentee voting.
      Unrestricted GAO reports can be accessed over the Internet at www.gao.gov.
      Unrestricted DoD IG reports can be accessed at www.dodig.mil/audit/reports and
      www.dodig.mil/Inspections/IE/Reports.htm.

GAO
      GAO Report No. GAO-06-521, “Elections: Absentee Voting Assistance to Military and
      Overseas Citizens Increased for the 2004 General Election, but Challenges Remain,”
      April 2006

      GAO Report No. GAO-01-1026, “Elections: Voting Assistance to Military and Overseas
      Citizens Should Be Improved,” September 28, 2001

      GAO Report No. GAO-01-470, “Elections: The Scope of Congressional Authority in
      Election Administration,” March 2001

DoD
      DoD IG Report No. IE-2006-001, “Evaluation of the Voting Assistance Program,”
      March 31, 2006

      DoD IG Report No. IE-2005-001, “Evaluation of the Voting Assistance Program,”
      March 31, 2005

      Secretary of Defense, “Report on DoD Actions to Support Voting Assistance to Armed
      Forces Outside the U.S.,” December 2004

      DoD IG Report No. D-2004-065, “DoD Implementation of the Voting Assistance
      Program,” March 31, 2004

      DoD IG Report No. D-2003-072, “DoD Compliance with the Uniformed and Overseas
      Citizens Absentee Voting Act,” March 31, 2003

      DoD IG Report No. D-2001-145, “Overseas Absentee Ballot Handling in DoD,”
      June 22, 2001

Department of State
      United States Department of State Report No. 01-FP-M-045, “Review of Implementation
      of the Federal Voter Assistance Program,” August 2001

                                                 Department of Defense Office of Inspector General
                                                                              Report No. IE07-004
                                            16
     Appendix C. Summary Results of Effectiveness Survey *
     Source: Uniformed Absentee Voters Questionnaire

     Area                                                               USA                USN                      USAF   USMC     Overall
                                                                                                                                  Percentages


     Information Dissemination
               ►      Info on VAP received?                             43%                 43%                     51%    24%       40%
               ►      Command Events this year                          34%                 36%                     32%    17%       30%
               ►      Know Voters Week                                  38%                 30%                     32%    22%       31%
               ►      Aware of VAP                                      68%                 60%                     79%    54%       65%
               ►      Aware of VAO                                      48%                 48%                     58%    32%       47%
               ►      On-base location for assistance                   61%                 57%                     63%    54%       59%
                      FPCA can be used to register and                  39%                 35%                     35%    21%       33%
                      request Absentee Ballot
               ►      FWAB can be used as back-up if                    40%                 32%                     27%    26%       31%
                      Regular Absentee Ballot is not received
17




               ►      FVAP Web site                                     31%                 27%                     24%    14%       24%
               ►      FVAP Voting Guide                                 31%                 27%                     27%    17%       26%
               ►      Service or installation voting Web site           29%                 27%                     23%    13%       23%
               ►      If Voting, how? Absentee Ballot                   70%                 65%                     73%    48%       64%
               ►      If Voting, how? In Person                         30%                 35%                     27%    52%       36%
               ►      UVAO assistance requested?                        52%                 48%                     35%    25%       40%
               ►      UVAO assistance not requested?                    35%                 42%                     63%    59%       50%

     Distribution of Materials
               ►      FPCA delivered by Jan 15th                        36%                 21%                     23%    18%       25%
               ►      FWAB received                                     32%                 20%                     18%    15%       21%




     The percentages refer to those responding to the questionnaire and do not generalize the respective Services
     Appendix D. Summary Results of Compliance Assessment *
     Source: Interviews with Voting Assistance Officers at 10 installations.

     Area                                                    USA         USN      USAF     USMC     Aggregate   Percentage

     VAO Appointments
          ► IVAO Assigned                                    3 of 3      2 of 2   3 of 3   2 of 2    10 of 10     100%
            ►    IVAO Proper rank/Pay Grade                  3 of 3      1 of 2   3 of 3   2 of 2     9 of 10     90%
            ►    UVAO Assigned (# installations)             3 of 3      2 of 2   3 of 3   2 of 2    10 of 10     100%
            ►    UVAO Proper rank/Pay Grade                  5 of 6      3 of 4   6 of 6   4 of 4    18 of 20     90%
            ►    VAOs Assigned in Writing                    6 of 9      0 of 4   6 of 8   4 of 4    16 of 25     64%
            ►    UVAO/Unit Member Ratio                      1 of 6      0 of 4   4 of 6   3 of 4     8 of 20     40%
                 Guidance

     Dissemination of Information
           ► VAOs expeditiously disseminate DoD             5 of 10      1 of 5   7 of 7   4 of 4    17 of 26     65%
                voting information
18




     Dissemination of Material
           ► UVAOs delivered FPCA by January 15              0 of 6      0 of 4   0 of 4   1 of 4    1 of 18       5%
                deadline

     Service Resources
            ► Provide Web sites                              1 of 1      1 of 1   1 of 1   1 of 1     4 of 4      100%
            ► VAOs purchase/maintain sufficient              7 of 8      3 of 4   8 of 8   6 of 6    24 of 26     92%
                 materials


     Service Written Guidance
            ► Military covered                               1 of 1      1 of 1   1 of 1   1 of 1     4 of 4      100%
            ► Dependents covered                             1 of 1      1 of 1   1 of 1   1 of 1     4 of 4      100%
            ► Deployed covered                               1 of 1      1 of 1   1 of 1   1 of 1     4 of 4      100%
            ► Dispersed covered                              1 of 1      1 of 1   1 of 1   1 of 1     4 of 4      100%
            ► Tenant units covered                           1 of 1      1 of 1   1 of 1   1 of 1     4 of 4      100%
Appendix E. Uniformed Absentee Voter
            Questionnaire



             Absentee Voter Questionnaire - Active Duty Members of the Uniformed
              Services & Dependents

                                    About This Questionnaire

Will my questionnaire responses be kept anonymous? Yes. There is no information being
collected that could be used to identify individuals. Your responses will be combined with
information from other uniformed service members and dependents to report the views and
experiences of groups of personnel. Do not use any personal names anywhere on this
questionnaire.

Why me? Installations have been selected to solicit information from uniformed service
members and dependents regarding the absentee ballot process. Information collected in this
questionnaire will be used to report their awareness of the absentee ballot voting process. Your
responses are important to provide us with insights to this process.

                                         Privacy Notice

Authority: This questionnaire is being administered by the Inspector General of the Department
of Defense under the authority of Section 1566, chapter 80 of title 10, United States Code.

Principal Purpose: Information collected will be used to determine uniformed service
members’ and dependents’ awareness of the procedures and resources used to support the
absentee ballot voting process. This information may assist in the formulation of policies to
improve the absentee ballot voting process.

Routine Uses: None.

Disclosure: Providing information on this questionnaire is voluntary. There is no penalty if you
choose not to respond. However, maximum participation is encouraged. No identifying
information is being collected that could identify individuals. Only summary information will be
reported.




                                                19
Completing This Questionnaire

•   This is not a test.
•   Select answers that you believe are most appropriate.
•   Fill in the appropriate circle or circles.
•   Complete all questions before exiting Web-site.

Demographic and Voting Questions

1. What is your status? Click on one circle.

    o Active Duty
    o National Guard
    o Voting Age Dependents

2. What is your/your sponsor’s Service? Click on one circle.

    o   Army
    o   Navy
    o   Air Force
    o   Marine Corps

3. What is your/your sponsor’s rate or rank? Click on one circle.

    o   E1—E4
    o   E5—E9
    o   W01-W05
    o   01-03
    o   04-010

4. What is your education level? Click on one circle

    o   Less than high school
    o   High school diploma or equivalent (e.g., GED)
    o   At least some college credits, but no 4-year degree
    o   Bachelor’s degree or higher




                                                20
5. What is your age? Click on one circle

       o 18 to 24
       o 25 to 44
       o 45 or older

6. Did you enlist or join the service during the past 12 months? Click
on one circle.

   o Yes
   o No (If no, please click here to skip to question 9)
   o N/A (If n/a, please click here to skip to question 9)

7. During the recruitment/enlistment process, were you provided the
following? Click on circle for item.

a. DD Form 2645, “Voter Registration Information.”

   o Yes
   o No
   o Don’t recall

b. DD Form 2644, “Mail Voter Registration Application.”

   o Yes
   o No
   o Don’t recall

8. Did you receive information on the absentee voter assistance program
during basic training? Click on one circle.

   o Yes
   o No
   o Don’t recall

9. Did you, either on-line or in person, complete any training during this calendar year on
absentee voter registration and voting procedures? Click on one
circle.

   o Yes
   o No




                                                21
10. Do you know the location on the installation where you can obtain
voting material and assistance? Click on one circle.

   o Yes
   o No

11. During this calendar year, did your/your sponsor’s command have
any special events dedicated to providing information on voter
registration and upcoming elections? Click on one circle.

   o Yes
   o No
   o Don’t recall

12. Are you aware of Armed Forces Voters Week? Click on one circle.

   o Yes
   o No

13. If planning to vote in the next election, what method do you plan to use? Click on one
circle.

   o Absentee Ballot
   o In Person

14. Do you know that your/your sponsor’s Service has a voting
assistance program? Click on one circle.

   o Yes
   o No

15. Are you an Installation or Unit Voting Assistance Officer
(IVAO/UVAO)?

   o Yes
   o No

16. Do you know who your Unit Voting Assistance Officer is? Click on
one circle.

   o Yes
   o No, (If no, please click here to skip to question 18)




                                               22
17. During 2006, did your Unit Voting Assistance Officer provide
assistance upon request? Click on one circle.

   o Yes
   o No
   o Assistance not requested

18. During 2006, did you receive the following?
Click on one circle for each item.

                                                                              Don’t
                                                      Yes           No
                                                                              Recall
a. Information about the Service voting assistance
program

b. In-hand delivery of SF 76, “Federal Post Card
Application (FPCA),” for Registration and
Request for Absentee Ballot by January 15th

c. SF 186, “Federal Write-in Absentee Ballot”



19. During 2006, were you aware of the voting and communication
tools listed below? Click on circle for each item.

                                                      Fully        Somewhat
                                                                            Unfamiliar
                                                      Aware        Aware
a. The Federal Voting Assistance Program Web-site
that provides voting-related information and
resources


b. 2006-07 Voting Assistance Guide that provides
State-by-State information that enables you to
register and vote absentee

c. A Service or installation voting assistance
program Web-site




                                                 23
20. Before taking this questionnaire, were you aware that the Federal Post Card Application, SF
76, could be used to register to vote and to request an absentee ballot? Click on one circle.

   o Yes
   o No

21. Before taking this questionnaire, were you aware that the Federal Write-In Absentee Ballot is
a backup ballot that can be used if you did not receive your regular absentee ballot? Click on one
circle.

   o Yes
   o No

22. Is there anything else related to the FVAP that you would like to mention?

   Thank you very much for participating in this questionnaire.




                                                24
Appendix F. Installations Visited

Department of the Army
Fort Lewis, Washington
Fort Stewart, Georgia / Hunter Army Airfield, Georgia


Department of the Navy
Naval Base San Diego, California
Naval Base Coronado, California
Marine Corp Base Camp Pendleton, California
Marine Corps Air Station Miramar, California

Department of the Air Force
McChord Air Force Base, Washington
Moody Air Force Base, Georgia
Robins Air Force Base, Georgia




                                               25
Appendix G. Department of the Army
            Inspector General Report




                    26
27
28
29
Appendix H. Department of the Navy
            Inspector General Report




                    30
31
32
33
34
Appendix I. Department of the Air Force
            Inspector General Report




                   35
36
37
38
39
40
Appendix J. Marine Corps
            Inspector General Report




                    41
42
43
44
45
46
47
48
49
50
51
52
53
Appendix K. List of Acronyms

Acronyms
DoD IG     Inspector General
FPCA       Federal Post Card Application
FVAP       Federal Voting Assistance Program
FWAB       Federal Write-In Absentee Ballot
GAO        Government Accountability Office
IVAO       Installation Voting Assistance Officer
USD(P&R)   Under Secretary of Defense for Personnel and Readiness
UOCAVA     Uniformed and Overseas Civilians Absentee Voting Act
UVAO       Unit Voting Assistance Officer
VAO        Voting Assistance Officer
VAP        Voting Assistance Program




                                  54
Appendix L. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)*
   Director, Federal Voting Assistance Program*
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Secretary of the Army
Chief of Staff, U.S. Army*
Inspector General, Department of the Army

Department of the Navy
Secretary of the Navy
Chief of Naval Operations*
Naval Inspector General
  Deputy Naval Inspector General for Marine Corps Matters*

Department of the Air Force
Secretary of the Air Force
Chief of Staff, U.S. Air Force*
Inspector General, Department of the Air Force

Combatant Command
Inspector General, Joint Staff

Non-Defense federal Organization
Office of Management and Budget

Congressional Committees
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Defense, Committee on Appropriations




                                                 55
Management Comments




               56
57
58
THE MISSION OF THE OIG DoD_______________________________________________

The office of the Inspector General of the Department of Defense was established by Congress
as one of the “independent and objective units [within listed ‘establishments,’ including the
Department of defense] to conduct and supervise audits and investigations relating to programs
and operations of those establishments.” As the principal advisor to the Secretary of Defense in
all Inspector General matters, the Inspector General serves as an extension of “the eyes, ears, and
conscience” of the Secretary. In support of the mission of the Department of Defense, the Office
of the Inspector General endeavors to:

   •   “Provide leadership…to promote economy, efficiency and effectiveness;”

   •   Prevent and detect “fraud, waste, and abuse;”

   •   “Provide policy direction for audits and investigations;”

   •   “Provide a means for keeping the Secretary of Defense and the Congress fully and
       currently informed about problems and deficiencies;” and

   •   “Give particular regard to the activities of the internal audit, inspection, and investigative
       units of the military departments with a view toward avoiding duplication and insuring
       effective coordination and cooperation.”


TEAM MEMBERS_____________________________________________________________

The Inspections and Evaluations Directorate, Office of the Deputy Inspector General for
Inspections and Policy, Office of the Inspector General for the Department of Defense prepared
this report. Personnel who contributed to the report include Mr. Deane Williams, Team Leader,
Ms. Beverly Cornish, and CDR Von W. ‘Web’ Freeman, USN.



ADDITIONAL REPORT COPIES________________________________________________

Contact us by phone, fax, or e-mail:
 Inspections and Evaluations Directorate, Deputy Inspector General for Inspections and Policy
 COM: 703.604.9130 (DSN 664-9130)
 FAX: 703.604.9769
 E-MAIL: crystalfocus@dodig.osd.mil
 Electronic version available at: http://www.dodig.mil/Inspections/IE/Reports.htm




                                                 59
This Page Intentionally Blank




             60
<Back Page Inserted Here by Editor at the End of the EL Cycle>




                              61
DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL


                 Vision: "One professional team strengthening the integrity,
                 efficiency, and effectiveness of Department of Defense
                 programs and operations."




 On the Cover:
 We have chosen the Statue of Freedom from the United States Capitol as a symbol to be reflected in our report
 covers.

 The bronze Statue of Freedom was designed by American sculptor Thomas Crawford in 1857-1859. Crawford                                                  If you suspect Fraud, Waste, Abuse, or Mismanagement in the Department of Defense, please contact:
 described his creation as being readily understandable by the American people:
   I have endeavored to represent Freedom triumphant __ in Peace and War . . . In her left hand she holds the olive




                                                                                                                                               hot line
                                                                                                                                               D E PA R T M E N T O F D E F E N S E
   branch while the right hand rests on a sword which sustains the Shield of the United States. These emblems
   are such as the mass of our people will easily understand . . . I have introduced a base surrounded by wreaths                                                                           To report fraud, waste, mismanagement, and abuse of authority.
   indicative of the rewards Freedom is ready to bestow . . .
                                                                                                                                                                                            Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
 Allen, William C. , The Dome of the United States Capitol: An Architectural History. Prepared under the Direction of George M. White, FAIA,                                                Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
 Architect of the Capitol, U.S. Government Printing Office Washington: 1992
